No. 19-42
IN THE SUPREME COURT OF THE UNITED STATES
_________________
NORTH CAROLINA UTILITIES COMMISSION, PETITIONER
v.
FEDERAL ENERGY REGULATORY COMMISSION
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 4th day of September 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 3,330 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
September 4, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 4, 2019
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0042
NORTH CAROLINA UTILITIES COMMISSION
FERC

KATHLEEN L. MAZURE
DUNCAN & ALLEN
1730 RHODE ISLAND AVENUE, NW
SUITE 700
WASHINGTON, DC 20036
202-289-8400
KLM@DUNCANALLEN.COM

